App. 1
APPENDIX A
LIST OF AMICI CURIAE1
Barbara Aronstein Black
George Welwood Murray
Professor Emerita of Legal History
Dean Emerita
Columbia Law School
Nikolas Bowie
Assistant Professor of Law
Harvard Law School
William R. Casto
Paul Whitfield Horn Distinguished Professor
Texas Tech University School of Law
Martin S. Flaherty
Leitner Family Professor of
International Human Rights
Fordham Law School
David Golove
Hiller Family Foundation Professor of Law
NYU Law School
Eliga H. Gould
Professor of History
University of New Hampshire

1

only.

Amici affiliations are provided for identification purposes

App. 2
Stanley N. Katz
Lecturer with Rank of Professor in
Public and International Affairs
Woodrow Wilson School of Public
and International Affairs
Princeton University
Samuel Moyn
Professor of Law and History
Yale Law School
Anne-Marie Slaughter
Bert G. Kerttsetter University Professor
of Politics and International Affairs, Emerita
Woodrow Wilson School of Public and
International Affairs
Princeton University

App. 3
APPENDIX B
MEMORIAL OF ZACHARY MACAULAY AND
JOHN TILLEY (NOV. 28, 1794)
Transcription from Original
This 1794 Memorial is from Zachary Macaulay,
Acting Governor of the Sierra Leone Company, and
John Tilley, the Agent of the Andersons, Merchants in
London who owned Bance Island in British Sierra Leone. Memorial of Zachary Macaulay, Acting Governor
of the Honorable the Sierra Leone Co.’s Colony at Sierra Leone, and John Tilley, Agent of Messrs John and
Alexander Anderson to the Right Honorable Lord
Grenville, One of His Majesty’s Principal Sec’ys of
State (Nov. 28, 1794) (on file with U.S. National Archives in Boston, MA, Microfilm M-50, Roll 2, Record
Group RG-59); see also Memorial of Zachary Macaulay,
Acting Governor of the Honorable the Sierra Leone
Co.’s Colony at Sierra Leone, and John Tilley, Agent of
Messrs John and Alexander Anderson to the Right
Honorable Lord Grenville, One of His Majesty’s Principal Sec’ys of State (Nov. 28, 1794) (on file with British
National Archives in Kew, United Kingdom, Microfilm
“America” 1794-95 FO 5/9 17-20). This Memorial accompanied the Letter from George Hammond to Edmund Randolph. Addendum C; see also Letter from
George Hammond, Minister Plenipotentiary of His
Britannic Majesty, to Edmund Randolph, Sec’y of
State, United States of Am. (April 15, 1795) (on file
with British National Archives in Kew, United Kingdom, Microfilm “America” 1794-95 FO 5/9 11-16)
(showing Macaulay and Tilley Memorial delivered to

App. 4
Mr. Hammond in April 1795). The Memorial is also referenced in the Bradford Opinion. See Breach of Neutrality, 1 Op. Att’y Gen. 57, 58 (1795).
[Page 1]
To the Right Honble Lord Grenville one of his Majesty’s principal Secretary’s of State.
The Memorial of Zachary Macaulay acting Governor of the Honble the Sierra Leone Company’s Colony of
Sierra Leone, on the coast of Africa, and of John Tilley
Agent of Messrs John and Alexander Anderson, Merchants in London, and proprietors of Bance Island an
establishment, on the said coast, Sheweth
That on the 28th of September last a french fleet
consisting of, one fifty gun ship, two frigates, two
armed brigs, with several armed prizes, did enter the
river Sierra Leone, and did take the Honble the Sierra
Leone Company’s chief establishment of Freetown,
and also Bance Island the establishment as is stated
above of Messrs John and Alexander Anderson’s
That contrary to the existing neutrality between
the British and American Governments, certain American subjects trading
[Page 2]
to this coast, did voluntarily join themselves to the
French fleet, and were aiding and abeting [sic] in attacking and destroying the property of British subjects
at the above named places and elsewhere, as your

App. 5
memorialists will take the liberty of stating more particularly to your Lordship.
That an American subject of the name of David
Newell, commanding a schooner called the Massachusetts belonging to Boston in the state of Massachusetts, the property as your memorialists believe of
Daniel Macniel a Citizen of Boston in the said state of
Massachusetts, did with the consent and concurrence
of the said Daniel Macniel who was then and there present, voluntarily assist in piloting the said french fleet
from the Isle de Loss to the river Sierra Leone.
That when the French had taken Freetown, the
said David Newell, did land there with arms in his
hands and at the head
[Page 3]
of a party of French soldiers, whom he conducted to the
house of the acting Governor one of your memorialists
That the said David Newell did make use of violent and threatening language towards your said memorialists and others, declaring aloud that it was now
an American war, and he was resolved to do all the injury in his power to the persons and property of the
inhabitants of Freetown.
That the said David Newell was active in exciting
the French soldiery to the commission of excesses, and
was aiding and abetting in plundering of their property the Honble the Sierra Leone Company and other
individuals British subjects.

App. 6
That on the same day, namely the 28th day of Septr
last the said David Newell, did assist in piloting a
French frigate up the River Sierra Leone to Bance Island, which place was attacked by the said frigate and
two other vessels, and on the 30th day of September
was taken and destroyed
[Page 4]
That as a reward to the said Daniel Macniel and
to the said David Newell for their services, the French
Commodore did deliver to the said David Newell on
board the Schooner commanded by him called the Massachusetts a considerable quantity of goods, which had
been the property of British subjects.
That another American subject of the name of Peter William Mariner, who during the last war had acted
has [sic] a Lieutenant on board of one of his Majesty’s
ships but now commanding a Schooner, belonging to
New-York called the ___ the joint property as your memorialists believe, of Geo Bolland late of the Island of
Bananas, on the coast of Africa, a British subject and
___ Rich a citizen of New-York did in like manner voluntarily assist in conducting the said French fleet from
the Isle de Loss to the river Sierra Leone.
That the said Peter Wm Mariner did also land at
Freetown in company of the French with arms in his
hands and was
[Page 5]
exceedingly active in promoting the pillage of the
place.

App. 7
That the said Peter Wm Mariner was more eager
in his endeavors to injure the persons and property of
British subjects than the French themselves, whom he
the said Peter Wm Mariner instigated to the commission of enormities by every mean [sic] in his power, often declaring that his heart’s desire was to wring his
hands in the blood of Englishmen.
That on the 29th day of Septr last the said Peter
Wm Mariner did voluntarily go in a sloop commanded
by him, and carrying American colours in pursuit of a
sloop belonging the said Messrs John and Alexander
Anderson of London, which had taken refuge in Pirat[e]’s bay, in the River Sierra Leone. That on the
same day, the said Peter Wm Mariner did seize the said
sloop and did deliver her up as a prize to the French
Commodore.
That the said Peter Wm Mariner did receive from
the French Commodore as a reward for his exertions a
Cutter which had been the property
[Page 6]
of the Honble the Sierra Leone Company called the
Thornton together with a considerable quantity of
goods, which had been the property of British subjects.
That the said Peter Wm Mariner did also carry off
from Freetown and apply to his own use a great variety
of articles the property of British subjects; particularly
a library of books belonging to the Honble the Sierra Leone Company, which there is reason to believe would
not have been carried off by the French.

App. 8
That on the 7th day of Octr last the said Peter Wm
Mariner did receive on board the said Cutter Thornton
commanded by him, a number of armed Frenchmen,
with whom and in company of a French armed brig, he
did voluntarily go in pursuit of a ship in the offing,
which proved to be the Duke of Bucclugh of London
John Maclean Master. That by the orders of the said
Peter Wm Mariner, a boat belonging to the said Duke of
Bucclugh was seized, and the chief mate of the said
Duke of Bucclugh who was on board the boat made
prisoner.
[Page 7]
That the said Peter Wm Mariner did hail the said
Duke of Bucclugh and did desire the said John Maclean to strike his colours, and to surrender to the said
Cutter Thornton which he the said Peter Wm Mariner
commanded. That on the said John Maclean refusing
to strike the said Peter Wm Mariner did fire a four
pound shot at the said Duke of Bucclugh.
That on the 9th day of Octr last, the said Peter Wm
Mariner did in the said Cutter Thornton commanded
by him voluntarily accompany three French vessels in
pursuit of the Ship Harpy of London Daniel Telford
Master, which ship they captured.
That the said Peter F Mariner did shew himself on
all occasions the determined and inveterate enemy of
British subjects, and was a cause together with the beforementioned [sic] persons Daniel Macniel and David
Newell of considerably more injury being done to

App. 9
British property on this coast, than without their aid
could have been done.
That your memorialists
[Page 8]
are ready to produce legal evidence of [the] above facts,
which they submit to your Lordship’s judgment in the
confidence that they will be taken into serious consideration both that the parties concerned may obtain
such redress as is to be had and that such wanton aggressions on the part of subjects of a neutral government may meet their due punishment
That in confirmation of the above your memorialists do affix to these presents which are contained on
this and the nine preceding pages their hands and
seals at Freetown this 28th day of Novr 1794
Signed Zachary Macaulay (LS)
John Tilley (LS)

App. 10
APPENDIX C
LETTER FROM GEORGE HAMMOND
(JUNE 25, 1795)
Transcription from Original
This letter, dated June 25, 1795, was addressed to
Edmund Randolph, the U.S. Secretary of State, from
George Hammond, the British Minister Plenipotentiary. Letter from George Hammond, Minister Plenipotentiary of His Britannic Majesty, to Edmund
Randolph, Sec’y of State, United States of Am. (June
25, 1795) (on file with U.S. National Archives in Boston,
MA, Microfilm M-50, Roll 2, Record Group RG-59); see
also Letter from George Hammond, Minister Plenipotentiary of His Britannic Majesty, to Edmund Randolph, Sec’y of State, United States of Am. (April 15,
1795) (on file with British National Archives in Kew,
United Kingdom, Microfilm “America” 1794-95 FO 5/9
11-16) (draft letter). Mr. Randolph then delivered the
letter to Attorney General William Bradford, requesting an opinion on the matter. Letter from Edmund
Randolph, Sec’y of State, United States of Am. to William Bradford, Att’y Gen., United States of Am. (June
30, 1795) (on file with U.S. National Archives in Boston,
MA, Microfilm M-40, Roll 8, Record Group RG-59). Attorney General Bradford referenced the letter from Mr.
Hammond in his opinion on the Sierra Leone incident.
See Breach of Neutrality, 1 Op. Att’y Gen. 57, 58 (1795).

App. 11
[Page 1]
The Undersigned Minister Plenipotentiary of His
Britannic Majesty has received instructions to lay before the Government of the United States the inclosed
memorial[s?] from the acting Governor of the British
Colony of Sierra Leone on the coast of Africa, and from
the Agent of Messrs John and Alexander Anderson,
Proprietors of Bance Island on the same Coast.
The Undersigned in communicating this Paper to
the Secretary of State does not think it necessary to
dwell either on the nature or the importance of the particular transactions which are there stated.
He would not however do Justice to the friendly
dispositions of his Court, or to the principles upon
which the present political relations of the two Countries are established, if upon an occasion of so serious,
and in its extent of
[Page 2]
of so unprecedented a nature, he were not to remark
that the line of forbearance hitherto pursued by His
Majesty under the circumstances of similar though
less aggravated offences cannot be considered as applicable to the present case.
The Citizens of the United States mentioned in
the inclosed paper[s?], if they were not originally the
authors of the expedition against the Settlements at
Sierra Leone, have taken so decided and leading a part
in the business, that the French crews and vessels employed on the same occasion, appear rather in the light

App. 12
of Instruments of hostility in their hands than as Principals in an enterprise undertaken against the Colony
of a Power with whom France only was at war.
The forbearance hitherto shewn by the British
government towards those citizens of the United
States who
[Page 3]
who have been found in the actual commission of acts
of hostility against His Majesty’s subjects has proceeded partly from an unwillingness to carry to their
full extent against the Individuals of a friendly Nation
measures of severity which would however have been
justified by the indisputable Laws of Nations, and
partly from the persuasion that these acts however frequent have arisen at least in some degree from an ignorance on the part of the persons concerned, with
respect to the extent of the crime which they were committing, and of the consequences to which they were
making themselves liable. But even the circumstance
of that forbearance entitles His Majesty to expect that
more attention will be paid to His representations on
the occasion of a transaction of the nature and extent
of that complained of in this memorial. It might be
stated with truth that under all the circumstances of
the Case these proceedings
[Page 4]
proceedings could hardly have been justified even by
any state of hostility between two countries who had
felt a common interest in the cause of humanity and in

App. 13
the general welfare of mankind: How much more reason is there then for complaint when these acts are
committed by the Citizens of a Power with whom His
Majesty is living on terms of perfect Amity, and towards whom He had been anxious to shew every degree of attention and friendship. On all these grounds
this case must be felt to be of a nature, which calls for
the most serious attention of both governments; and
the rather, because it appears by other accounts which
have been received by the British government, that
similar practices are daily multiplying in the West Indies and elsewhere. The King is confident that the
United States will feel the necessity of adopting the
most vigorous measures with a view to restrain in
future such illegal and piratical aggressions which
must
[Page 5]
must be as repugnant to the wishes and intentions of
the American government as they are contrary to all
the principles of Justice and all the established rules
of neutrality. And His Majesty trusts on the present occasion, that to the ample indemnification of the parties
aggrieved will be added such exemplary punishment of
the offenders as may satisfy the just claims of the British government, and secure to the two Countries the
uninterrupted enjoyment of that intercourse of friendship and good understanding, which proceedings of the

App. 14
nature complained of have so obvious a tendency to
disturb.
Geo. Hammond.
Philadelphia
25 June 1795.

